LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 14, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-915: UNICOLORS, INC. V. H&M HENNES & MAURITZ, LP
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
Petitioner referenced above contains 5,997 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 14th day of October 2021.

